Supreme Court, U.S.
FILED

20-830

JUN 0 <t 2021

No:

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Calvin Gumbs, II
— PETITIONER
(Your Name)
vs.

Kelly Harrigan, et al.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

Supreme Court of the Virgin Islands
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Calvin Gumbs, II
(Your Name)

Post Office Box 12013
(Address)

h

w

Saint Thomas, VI (US Virgin Islands) 00801
(City, State, Zip Code)

(340) 725 - 4558 nr H40) 227 - 5621
(Phone Number)

-V

QUESTION(S) PRESENTED

I.

Did the Supreme Court of the Virgin Islands err in dismissing the Petitioner’s
appeal, being dismissed for lack of jurisdiction, considering that, pursuant to
title 4, section 32(a) of the Virgin Islands Code, the Supreme Court of the Vir­
gin Islands has jurisdiction over all appeals arising from final judgments, final
decrees or final orders of the Superior Court, or as otherwise provided by law?

II.

Based on the penultimate order given by the Supreme Court of the Virgin
Islands, ordered, attested, and placed on record on July 31, 2020, did the
Supreme Court of the Virgin Islands err in granting Respondent’s motion
to dismiss after ordering the parties shall file briefs (or letter) that shall
only address whether [the Supreme] Court [of the Virgin Islands (VI)]
has appellate jurisdiction over the order appealed by the Petitioner?

III.

In dismissing Petitioner’s appeal, did both the VI Supreme Court and the
Superior Court deny the Petitioner his due process rights, as provided in the
First, Fifth, and Fourteenth Amendments to the United States Constitution?

IV.

As evinced in the submission of its final ruling, did the VI Supreme Court deny
the Petitioner the timely filing of this Petition due to the fact that there is a twomonth (59-day) period between the time of the order (January 5th, 2021) and the
time of the attestation and recording (March 5th, 2021), i.e., did the Supreme
Court of the Virgin Islands err in its untimely filing, in the interests of justice?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[0 All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of
this petition is as followsKelly Harrigan
Tina M. Koopmans (deceased)
University of the Virgin Islands
Henry V. Carr, Magistrate of the Superior Court of the Virgin Islands Small Claims Division
Superior Court of the Virgin Islands - Small Claims Division

RELATED CASES
The related cases in the lower courts, the court system of the Virgin Islands, are/were

Calvin Gumbs II vs Tina M. Koopmans, Kelly Harrigan & University of the Virgin
Islands, No. ST-15-SM-0000522, Superior Court of the Virgin Islands Division of St.
Thomas and St. John (Small Claims Division). Judgment entered Nov. 9, 2015
(scanned, submitted, and e-mailed Nov. 13, 2015).

Calvin Gumbs II vs TinaM. Koopmans, Kelly Harrigan, University of the Virgin
Islands, Henry V Carr, III (Magistrate) and Superior Court of the Virgin Islands
Small Claims Division, No. ST-2017-CV-00342, Superior Court of the Virgin Islands

Division of St. Thomas and St. John. Judgment entered Feb. 27, 2020 but delivered
by Virgin Islands Superior Court Marshal May 27, 2020.

Calvin Gumbs II vs Kelly Harrigan, TinaM. Koopmans, University ofthe Virgin
Islands, and Henry V Carr, III (Magistrate) & Superior Court of the Virgin Islands
Small Claims Division, No. 2020*0041, Supreme Court of the Virgin Islands. Judg­
ment entered Jan. 5, 2021 (attested, recorded, e-filed, and e*mailed Mar. 5, 2021).

These following cases are in no direct relation but share very similar interests to this
and the aforementioned cases'

Calvin Gumbs II vs TinaM. Koopmans, Kelly Harrigan & University of the Virgin
Islands, No. 2016*0034, Supreme Court of the Virgin Islands. Judgment entered
Feb. 22, 2017.

Calvin Gumbs II vs Tina M. Koopmans, Kelly Harrigan & University of the Virgin
Islands, No. ST*2016*CV*00233, Superior Court of the Virgin Islands. This case was
reversed and remanded (reopened), as ordered by Case No. 2016*0034, Supreme
Court of the Virgin Islands. This case has not moved (still open) as of this writing.

Calvin Gumbs II vs Kelly Harrigan & University of the Virgin Islands, No. ST* 15*
SM*0000202, Superior Court of the Virgin Islands Division of St. Thomas and St.
John (Small Claims Division). This case was mediated Aug. 19, 2015 with a pro­
posed settlement.

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

8

CONCLUSION
15

INDEX TO APPENDICES

APPENDIX A

Order of the Supreme Court of the Virgin Islands

APPENDIX B

Order of the Superior Court of the Virgin Islands

APPENDIX C

Order of the Superior Court Small Claims Division

APPENDIX D

Other Pertinent/Relevant Preceding Information

APPENDIX E

Other Pertinent/Relevant Documentation

APPENDIX F

Other Pertinent/Relevant Subsequent Information

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Bryant v. People, 53 V.I. 395, 400 (V.I. 2010)................................................

8

Enrietto v. Rogers Townsend & Thomas PC, 49 V.I. 311, 315 (V.I. 2007)

8

Goldberg v. Kelly 397 U.S. 254, 267 (1970).....................................................

11

Lisenba v. California, 314 U.S. 219, 236 (1941)............................................

14-15

Marchant v. Pennsylvania R.R., 153 U.S. 380, 386 (1894).........................

12-13

Snyder v. Massachusetts, 291 U.S. 97, 105 (1934)......................................

11

STATUTES AND RULES
18U.S.C. § 1509.....................................................................................

10

28U.S.C. § 1254(1).................................................................................

2

28U.S.C. § 1257(a).................................................................................

2

Code of Judicial Conduct/Code of Conduct for United States Judges

15

V.I. Code tit. 4, § 32.............................................................................

8, 9

OTHER
United States Constitution, Amendment I

3, 12

United States Constitution, Amendment V.,

3, 10, 12, 13

United States Constitution, Amendment VI

13

United States Constitution, Amendment XIV

3, 10, 12, 13

I

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
> or
[ ] reported at
[ ] has been designated for publication but is not yet reported; or
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or
[ ] is unpublished.
@ For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A
to the petition and is
[|X] reported at Judicial Branch of the U.S. Virgin Islands (www.vicourts.org) ; or.
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Superior Court of the Virgin Islands - St. Thomas & St. John Division
to the petition and is
appears at Appendix B
or,
[|X] reported at Judicial Branch of the U.S. Virgin Islands (www.vicourts.org)
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courtsThe date on which the United States Court of Appeals decided my case
was _______________________ _
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date:_____________
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
! (date)
to and including______
(date) on
in Application No___ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

® For cases from state courts:
Jan. 5 or Mar. 5,
The date on which the highest state court decided my case was 2021
A copy of that decision appears at Appendix A
.
[ ] A timely petition for rehearing was thereafter denied on the following date_______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No____A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

United States Constitution, Amendment ICongress shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or abridging the
freedom of speech, or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a redress of grievances.

United States Constitution, Amendment V:
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand Jury,
except in cases arising in the land or naval forces, or in the Militia,
when in actual service in time of War or public danger; nor shall any
person be subject for the same offense to be put twice in jeopardy of life
or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use,
without just compensation.

United States Constitution, Amendment XIVAll persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

The 2019 US Virgin Islands Code Title 4 * Judiciary - § 32. Jurisdiction

The text of the [local] provision appears in the Appendix F.

3.

STATEMENT OF THE CASE

On June 4th, 2014, Petitioner was approached by one of the Respondent(s),
Kelly Harrigan, while the Petitioner was in the middle of sorting out paperwork.
Said Respondent then proceeded with one of the most unprofessional and
disrespectful statements ever made, according to Petitioner and countless others
when reprising the incident-

“I know you are computer literate enough to understand what I am about to tell
you. Romeo Richardson has placed thousands ofdollars on your account. You are
the reason we have to keep replacing our print cartridges. I am not going to revoke
your account, but it now has a balance ofzero and, ifyou want to print any further,
you are going to have to put money in your account” [Appendix (“App.”) at E01, E03]

That was what started it all. Not only did said Respondent make the false
accusation and admitted to taking Petitioner’s money by zeroing the account, but,
had that tone been delivered in a much more business-friendly and professional
standard, there would be absolutely no dispute to have been escalated to the
Supreme Court level, let alone any dispute at all. The main theme(s) of the issue
is/are Kelly Harrigan’s attitude and ignorance, being that when Petitioner
requested clarification, said Respondent instead feigned some threat, having
Petitioner banned from the campus of the University of the Virgin Islands (from
henceforth being known as “UVI”) [App. at E02, E03].

4.

Respondent Tina M. Koopmans joined in the fray mainly during the
mediation period of the initial Superior Court of the Virgin Islands Small Claims
case ST-15-SM-0000202. It was not unusual that Koopmans backed up Harrigan
[as any ‘boss’ would do for his/her employee] even after making contradictory
statements to Petitioner via telephone almost exactly one year prior [App. at E03 E04]. The big surprises were the total defense of the derogatory statement made
that started it all [App. at D08, E01, E03, E04] AND the deliberate action of both
mentioned Respondent(s) trying to make Petitioner say he made a ridiculous
deposit amount all the while dangling the possibility/potential of refunding
Petitioner in the amount that was zeroed out; it was later discovered by the
Petitioner that said latter act was classified as coercion [App. at DIO, E02].

With the promise of a timely apology [App. at E04], Petitioner decided to
maintain peace and comply with the terms of the settled agreement. However, the
correspondence from Respondent Koopmans was both untimely and anything but
the agreed-upon apology [App. at D07, D08, E04], potentially making it a Breach of
Contract/Contractual Obligation [App.atE05, E10], and making Koopmans a named
Defendant/Appellee/Respondent ever since. There were subsequent dismissals of
Small Claims case ST-15-SM-0000522 [Appendix C] and the Superior Court of the
Virgin Islands case ST-2016-CV-00233 where due process was not granted; the
Supreme Court of the Virgin Islands reversed the ruling of ST-2016-CV-00233 and

5.

remanded the case back to the VI Superior Court with their [Supreme Court] ruling
of 2016-0034 [App. at E13, E14], primarily because of the Superior Court’s violation
of due process. Though ordered on February 22nd, 2017, there has been absolutely
no movement on that [reopened Superior Court] case [...-CV-00233], particularly
since the judge on record recused himself almost three years ago (June 7, 2018).

Case number ST-2017-CV-00342 was filed on July 31st, 2017 with the VI
Superior Court after finding out the very Magistrate, Respondent Henry V. Carr
(along with Superior Court of the Virgin Islands Small Claims personnel) may have
been, or appeared to have been, in violation of impropriety and conspiring with the
other named Respondent(s), based on the language of his November 9th, 2015 order
of Small Claims case ...-SM-0000522 [Superior Court claim- App. Starting at E05].
(Coming to light, that Small Claims case became the catalyst to this current claim.)

After numerous recusals from many judges in the United States Virgin
Islands Court System, which themselves occurred after the 2017 Category-2
hurricanes that passed through the territory and months-long power outages, case
ST-2017-CV-00342 was dismissed in part on February 27th, 2020 [Appendix B]J
Petitioner did not get word or any information pertaining to the dismissal until a
Virgin Islands Superior Court Marshal presented the order to Petitioner’s home on
May 27th, 2020 [App. at B04], a whole three months after the dismissal.

6.

Case 2020-0041 with the Supreme Court of the Virgin Islands was imme­
diately filed on June 26th, 2020 and just when a scheduling order was being set,
the VI Supreme Court, on July 31st, 2020, issued a decree, where it was hereby
. .ORDERED that within fourteen (14) days of the date of entry of this Order the parties
SHALL FILE briefs, which may be in the form of a letter in which the parties SHALL ONLY
ADDRESS whether this Court has appellate jurisdiction over the order appealed...” [App. atE30]
It is important to note that while the Petitioner filed a brief and counsel for Respon­
dent Magistrate Carr and the Small Claims Division submitted a letter, counsel for
Respondent UVI and its two employees filed a motion to dismiss, which wasn’t
decreed in the VI Supreme Court’s order. On March 5th, 2021, an order to dismiss
for lack of jurisdiction along with an order to grant Respondent UVI and employees’
motion to dismiss was attested and recorded, even though said order had shown a
date of January 5th, 2021 [Appendix A].

On March 10th, 2021, Petitioner filed a motion to reconsider the dismissal
order [App. at E3l], and it has yet to be acknowledged.

On March 15th, 2021,

Petitioner filed a notice of appeal, but it was to the United States Court of Appeals;
Third Circuit in Philadelphia, Pennsylvania since there was a lack of knowledge
from several entities as to where an appeal was to go; somehow, the VI Supreme
Court approved said appeal notice to the 3rd Circuit Court on April 14th, 2021.

Under advisement, Petitioner submitted a letter to the Chief Justice of the VI
Supreme Court on March 25th, 2021 - neither the letter nor the motion to reconsider
were responded to as of this writing.
7.

REASONS FOR GRANTING THE PETITION

Section 32 of the United States Virgin Islands (from henceforth being known
as “USVT or, simply, “VI”) Code, under the title of Judiciary (Title Four) provides*
“(a) The Supreme Court shall have jurisdiction over all appeals arising from final
judgments, final decrees or final orders of the Superior Court, or as otherwise provided by law.”
Even though the VI Supreme Court stated in its July 31, 2020 order [App. at E28]
that the final judgment rule “generally requires a party ‘to raise all claims of error
in a single appeal following final judgment on the merits.’” Bryant v. People, 53 V.I.
395, 400 (V.I. 2010) (quoting Enrietto v. Rogers Townsend & Thomas PC, 49 V.I.
311, 315 (V.I. 2007))” ■ all claims of error were raised in this appeal [App.atE23*24],
but the VI Court System appeared to have not dismissed the entire case to fashion
some expiration of their statute of limitations for said case, particularly when*
(a) the lower court (in this case, the Superior Court of the VI, from henceforth
being known as “Superior Court”) has always had and continues to shield
that very information they claim to request (according to its order [Appendix
B]) from Petitioner [App. atE23-E24], whether due to the past Category-2
hurricanes of 2017, the current COVID-19 pandemic, or other reasoning;
(b) Superior Court had deployed their Marshal(s) to serve the copies of case ST2017-CV-00342 to the Respondent(s) (formerly known as Defendant(s)) from
July 2017 and one Marshal to serve Petitioner the February 27th, 2020 order

8.

on May 27th, 2020, yet Superior Court (and, apparently, the Respondent(s) on
the side of UVT, stated in their motion to dismiss in lieu of the VI Supreme
Court-required letter or brief) chose not to acknowledge the actual existence
of the Marshals’ deployments, be it summons or service;
(c) Superior Court granted a number of judges to recuse themselves from trying
said case for the near-three years of its existence (2017*2020); and
(d) Superior Court denied Petitioner the right to due process.

Hence, based on VI Code Title 4 Section 32, the VI Supreme Court did have,
but should not have cited lack of, jurisdiction of its case 2020-0041 - they instead
allowed an improper procedure to have taken place...

Contempt of court is defined as being any willful disobedience to, or disregard
of, a court order or any misconduct in the presence of a court. It can also he in
\

reference to an action that interferes with a judge’s ability to administer justice or
that insults the dignity of the court. When the VI Supreme Court issued an order of
. .the parties SHALL FILE briefs, which may be in the form of a letter in which the parties
SHALL ONLY ADDRESS whether this Court has appellate jurisdiction over the order
[App.atE30]
appealed...”
and one of the parties instead choose to file a motion to dismiss, which was not in
the order handed by the [VI Supreme] Court, that party is in direct violation of the
order, and deliberately breaching a court order may be in contempt of court.

9.

notice, opportunity for hearing, confrontation and cross-examination, discovery.
basis of decision, and availability of counsel. Petitioner feels procedural due process
was not followed here, during his journey through these proceedings. Petitioner has
never had an opportunity for hearing, confrontation and cross-examination, and
barely any notice, particularly when counsel for one of the Respondent(s) submitted
a[n illegal] motion to dismiss that was granted without having the opportunity to
address and/or counter such motion due to the restrictions of the July 31st, 2020
order of the VI Supreme Court [App. At E30]. The basis of the VI Supreme Court
decision was also affected by this motion, and Petitioner cites the not following of
procedural due process in this instance as well.

Procedural due process is essentially based on the concept of "fundamental
fairness." In the matter of Snyder v. Massachusetts, 291 U.S. 97, 105 (1934), this
Court held that due process is violated "if a practice or rule offends some principle of
justice so rooted in the traditions and conscience of our people as to be ranked as
fundamental."

As construed by the courts, it “includes an individual's right to be

adequately notified of charges or proceedings, the opportunity to be heard at these
proceedings, and that the person or panel making the final decision over the
proceedings be impartial in regards to the matter before them.” Goldberg v. Kelly
397 U.S. 254, 267 (1970). Impartiality was not practiced when the Superior Court
Small Claims Division ordered a dismissal citing it “will not allow [Plaintiff] to

11.

inconvenience [Defendants]...” [App. at C03], when Superior Court ordered a
dismissal in part (requesting Petitioner to provide information to Superior Court
that Superior Court already had in their possession, just to waste time, efforts, and
any statute of limitation for appeal) [App. at B03], or when the VI Supreme Court
ordered dismissals without granting Petitioner the option to respond to counsel’s
motion to dismiss that should had never been granted to begin with [App. at A02].
In fact, none of the lower courts granted a hearing or any other facet of due process
before their respective orders were given.

Due process deals with the administration of justice and thus the due process
clause (as in the Fifth and Fourteenth Amendments) acts as a safeguard from
arbitrary denial of life, liberty, or property by the Government outside the sanction
of law (see page 3). Due Process is that which comports with the deepest notions of
what is fair and right and just. Due process ensures the rights and equality of all
citizens. It is, after all, a First Amendment liberty and constitutional right, as is
the statement that “Congress shall make no law ... prohibiting the free exercise
thereof or abridging the freedom ...or the right of the people ...to petition the
Government for a redress ofgrievances'.'

“When a [plaintiff] ... has the benefit of a full and fair trial in the ... courts of
his own [state] whose jurisdiction he invokes, and where his rights are measured
not by laws made to affect him individually, but by general provisions of law

12..

applicable to all in like condition, ... the proceedings that so resulted were in "due
process of law" as that phrase is used in the Fifth and the Fourteenth Amendments
to the Constitution of the United States.” Marchant v. Pennsylvania R.R., 153 U.S.
380, 386 (1894)

A fundamental U.S, constitutional right is “the right to a speedy and public
trial” (Sixth Amendment to the United States Constitution) - unfortunately, that
specifically applies to the accused in criminal prosecutions; that doesn’t mean it
should only apply in criminal cases. What was done in Petitioner’s previous cases
in the lower courts could be justified as criminal, but is it, in fact, unconstitutional?
Americans deserve a civil legal process that can fairly and promptly resolve
disputes for everyone — rich or poor, individuals or businesses, in matters large or
small — yet our civil justice system frequently fails to meet this standard.
Americans rely on an impartial judge (or jury) to resolve conflicts according to a set
of rules that govern everyone equally — this framework is still the most reliable
path to justice and an affirmation that we live in a society where our rights are
recognized and protected.

Citizens must be placed at the center of the system. They must be heard,
respected, and capable of getting a just result, not just in theory but also in
everyday practice. Courts must give each matter the attention it needs — no more,
no less — and judiciously steer the cases our system faces. It should never have

13.

taken a whole three months for Petitioner to receive an order from Superior Court,
which in turn ordered documentation to be submitted within 30 days of its order,
documentation that they’ve already had for almost three years prior [Appendix B].
It also should not have taken two months (59 days) for a signed order from the VI
Supreme Court to be attested, recorded, and published on its judicial website
[Appendix A]; it brings a very serious issue as to on when a limitation statute
commenced, the 5th of January or the 5th of March?!!

Our legal system promises the just, speedy, and inexpensive resolution of
civil cases, but it does not regularly live up to that promise. In the case of Supreme
Court Small Claims number ST-15-SM-0000522, it took six days (four if you don’t
count the weekend) for an order [that was not just] to be delivered [Appendix C].
The lack of reasonable attempts to address problems in the civil justice system has
prompted many to forgo legal remedies entirely and, as a result, public trust and
confidence in the courts have decreased. The continued “shortcuts” of these lower
courts, even before the COVID-19 pandemic, have caused continued frustration
from many, such as this Petitioner, who wants to be seen and heard in court instead
of fighting on paper, if one even has that chance to do so. Dismissing cases before
they have opportunities to start is not what was envisioned by the founders of this
nation and legal system!

"... denial of due process is the failure to observe that fundamental fairness

14.

essential to the very concept of justice. In order to declare a denial of it . . . [the
Court] must find that the absence of that fairness fatally infected [proceedings]; the
acts complained of must be of such quality as necessarily prevents a fair
[proceeding].” Lisenba v. California, 314 U.S. 219, 236 (1941)

The Code of Judicial Conduct (locally as the Virgin Islands Model Code of
Judicial Conduct, institutionally as the American Bar Association Model Code of
Judicial Conduct, and nationally as the Code of Conduct for United States Judges)
is congruent throughout all of the levels/scales/scopes and not exempt among any
sworn officer of justice!

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

June 4th, 2021
Date-

15.

